case: iy-iubii

Document: l)Ubit>;3Ut>fcj42

Page:!

Date Hied: U2/1 l/^u^u

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-10511
Conference Calendar

United States Court of Appeals
Fifth Circuit

FILED
February 11,2020

UNITED STATES OF AMERICA,
Plaintiff-Appellee

Lyle W. Cayce
Clerk

v.
ANTHONY ROY BROWN,
Defendant-Appellant

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:18-CR-310-1

Before CLEMENT, GRAVES, and OLDHAM, Circuit Judges.
PER CURIAM:*
The attorney appointed to represent Anthony Roy Brown has moved for
leave to withdraw and has filed a brief in accordance with Anders v. California,
386 U.S. 738 (1967), and United States v. Flores, 632 F.3d 229 (5th Cir. 2011).
Brown has filed a response. We have reviewed counsel’s brief and the relevant
portions of the record reflected therein, as well as Brown’s response. We concur
with counsel’s assessment that the appeal presents no nonfrivolous issue for

* Pursuant to 5TH ClR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
ClR. R. 47.5.4.

case: iy-iut>n

Document: UUiJlb3Ubt>42

Page: z

Date Hied: U2/1 i/idu^u

No. 19-10511
appellate review.

Accordingly, counsel’s motion for leave to withdraw is

GRANTED, counsel is excused from further responsibilities herein, and the
APPEAL IS DISMISSED. See 5TH ClR. R. 42.2. Brown’s request for substitute
counsel or to proceed pro se is DENIED. See United States v. Wagner, 158 F.3d
901, 902-03 (5th Cir. 1998).

2

case: ly-iubii

Document: uubiwubb4b

Mage: 1

Date Hied: u^/n/^u

United States Court ofAppeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

LYLE W. CAYCE
CLERK

February 11, 2020
MEMORANDUM TO COUNSEL OR PARTIES LISTED BELOW
Regarding:

Fifth Circuit Statement on Petitions for Rehearing
or Rehearing En Banc

No. 19-10511

USA v. Anthony Brown
USDC No. 4:18-CR-310-1

Enclosed is a copy of the court's decision, The court has entered
judgment under Fed. R. App. P. 36.
(However, the opinion may yet
contain typographical or printing errors which are subject to
correction.)
Fed. R. App. P. 39 through 41, and 5TH Cir. R.s 35, 39, and 41
govern costs, rehearings, and mandates.
5TH Cir. R.s 35 and 40
require you to attach to your petition for panel rehearing or
rehearing en banc an unmarked copy of the court' s opinion or order.
Please read carefully the Internal Operating Procedures (IOP's)
following Fed. R. App. P. 40 and 5th Cir. R. 35 for a discussion of
when a rehearing may be appropriate, the legal standards applied
and sanctions which may be imposed if you make a nonmeritorious
petition for rehearing en banc.
Direct Criminal Appeals. 5th Cir. R. 41 provides that a motion for
a stay of mandate under Fed. R. App. P. 41 will not be granted
simply upon request. The petition must set forth good cause for
a stay or clearly demonstrate that a substantial question will be
presented to the Supreme Court.
Otherwise, this court may deny
the motion and issue the mandate immediately.
Pro Se Cases.
If you were unsuccessful in the district court
and/or on appeal, and are considering filing a petition for
certiorari in the United States Supreme Court, you do not need to
file a motion for stay of mandate under Fed. R. App. P. 41.
The
issuance of the mandate does not affect the time, or your right,
to file with the Supreme Court.
Court Appointed Counsel.
Court appointed counsel is responsible
for filing petition(s) for rehearing(s) (panel and/or en banc) and
writ(s) of certiorari to the U.S. Supreme Court, unless relieved
of your obligation by court order.
If it is your intention to
file a motion to withdraw as counsel, you should notify your client
promptly, and advise them of the time limits for filing for
rehearing and certiorari.
Additionally, you MUST confirm that
this information was given to your client, within the body of your
motion to withdraw as counsel.

case: iy-iubii

Document: uut>iS3Ubfc>4fc>

Page: l

Date hiied: U2/11/ZUiiU

Sincerely,
LYLE W. CAYCE, Clerk

By:__________________________
Peter A.Conners,Deputy Clerk
Enclosure(s)
Mr. Anthony Roy Brown
Mr. Derek D. Brown
Ms. Leigha Amy Simonton

t

-Al

a
I

:. i W 8 '. . '

\f fcvMWt*-

, U.S. DISTRICT COURT
NORTHKKN DISTRICT OF I'liXAS

~

filed
MAR - 4 2020
OF AP P^^iyfij s nis i riot court

IN THE UNITED STATES COURT
FOR THE FIFTH CIRCUIT
No. 19-10511
Conference Calendar

By-

Deputy

United State* Court of Appeal*
Fifth Circuit

FILED
February 11, 2020
D.C. Docket No. 4:18-CR-310-1 - * Lyle W. Cayce
Clerk
UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
ANTHONY ROY BROWN,
Defendant - Appellant
Appeal from the United States District Court for the
Northern District of Texas
Before CLEMENT, GRAVES, and OLDHAM, Circuit Judges.
JUDGMENT
This cause was considered on the record on appeal and the briefs on file.
It is ordered and adjudged that the appeal is dismissed.

A True Copy
Certified order issued Mar 04, 2020

LI. CcamC*
Clerk, U.S. Court of Ap peals, Fifth Circuit

1-5

U.S. DISTRICT CO URT

Case 4:18-cr-00310-A Document 33

i

Filed 04/26/19

Pabe 1 «6i6rcii&3ugBfcEft89' OFTEXAS
(

FILED

{Hmtefc i&tatetf ©strict Cou

APR 2 6 2019

Northern District of Texas
Fort Worth Division

UNITED STATES OF AMERICA

§

CLERK. U.S. DISTRICT COURT
By.

v.

§

Case Number: 4:18-CR-310-A(01)

ANTHONY ROY BROWN

§

Deputy

JUDGMENT IN A CRIMINAL CASE
The government was represented by Assistant United States Attorney Robert Boudreau.
The defendant, ANTHONY ROY BROWN, was represented by Derek Brown.
The defendant pleaded guilty on January 11, 2019 to the one count Information filed on
December 31, 2018. Accordingly, the court ORDERS that the defendant be, and is hereby,
adjudged guilty of such count involving the following offense:
Title & Section / Nature of Offense
18 U.S.C. §§ 922(g)(1) and 924(a)(2) Felon in Unlawful Firearm Possession

Date Offense Concluded
07/20/2018

Count
1

As pronounced,and imposed on April 26, 2019, the defendant is sentenced as provided in
this judgment.
The court ORDERS that the defendant immediately pay to the United States, through the
Clerk of this Court, a special assessment of $100.00.
The court further ORDERS that the defendant shall notify the United States Attorney for
this district within 30 days of any change of name, residence address, or mailing address, as set
forth below, until all fines, restitution, costs, and special assessments imposed by this Judgment
are fully paid. If ordered to pay restitution, the defendant shall notify the court, through the clerk
of this court, and the Attorney General, through the United States Attorney for this district, of
any material change in the defendant’s economic circumstances.
IMPRISONMENT
The court further ORDERS that the defendant be, and is hereby, committed to the
custody of the United States Bureau of Prisons to be imprisoned for a term of 120 months, This
sentence shall run consecutively to any sentence imposed in the Tarrant County, Texas, Criminal
Court No. 7, under Case No. 1550605, and any sentence imposed in the Criminal District Court
No. 4 of Tarrant County, under Case No. 1567543D.
The defendant is remanded to the custody of the United States Marshal.

1

; -b
Case 4:18-cr-00310-A Document 33 Filed 04/26/19

Page 2 of 5 PagelD 81

SUPERVISED RELEASE
The court further ORDERS that, upon release from imprisonment, the defendant shall be
on supervised release for a term of three (3) years and that while on supervised release, the
defendant shall comply with the standard conditions ordered by this Court and shall comply with
the following additional conditions:
1.

The defendant shall not commit another federal, state, or local crime.

2.

The defendant shall not unlawfully possess a controlled substance.

3.

The defendant shall cooperate in the collection of DNA as directed by the U.S. Probation
Officer,.as authorized by the Justice for All Act of 2004.

4.

The defendant shall refrain from any unlawful use of a controlled substance, submitting
to one drug test within 15 days of release from imprisonment and at least two periodic
drug tests thereafter, as directed by the probation officer pursuant to the mandatory drug
testing provision of the 1994 crime bill.

5.

The defendant shall participate in a program approved by the probation officer for
treatment of narcotic or drug or alcohol dependency that will include testing for the
detection of substance use, abstaining from the use of alcohol and all other intoxicants
during and after completion of treatment, contributing to the costs of services rendered at
the rate of at least $25 per month.

6.

The defendant shall also comply with the Standard Conditions of Supervision as
hereinafter set forth.

!■

Standard Conditions of Supervision
1.

. The defendant shall report in person to the probation office in the district to which the
defendant is released within seventy-two (72) hours of release from the custody of the
Bureau of Prisons.

2.

The defendant shall not possess a firearm, destructive device, or other dangerous weapon.

3.

The defendant shall provide to the U.S. Probation Officer any requested financial
information.

4.

The defendant shall not leave the judicial district where the defendant is being supervised
without the permission of the Court or U.S. Probation Officer.

5.

The defendant shall report to the U.S. Probation Officer as directed by the court or U.S.
Probation Officer and shall submit a truthful and complete written report within the first
five (5) days of each month.

6.

The defendant shall answer truthfully all inquiries by the U.S. Probation Officer and
follow the instructions of the U.S. Probation Officer.
2

1-1
Case 4:18-cr-00310-A Document 33 Filed 04/26/19

!

Page 3 of 5 PagelD 82

7.

The defendant shall support his dependents and meet other family responsibilities.

8.

The defendant shall work regularly at a lawful occupation unless excused by the U.S.
Probation Officer for schooling, training, or other acceptable reasons.

9.

The defendant shall notify the probation officer at least ten (10) days prior to any change
in residence or employment.

10.

The defendant shall refrain from excessive use of alcohol and shall not purchase, possess,
use, distribute, or administer any narcotic or other controlled substance, or any
paraphernalia related to such substances, except as prescribed by a physician.

11.

The defendant shall not frequent places where controlled substances are illegally sold,
used, distributed, or administered.

12.

The defendant shall not associate with any persons engaged in criminal activity, and shall
not associate with any person convicted of a felony unless granted permission to do so by
the U.S. Probation Officer.

13.

The defendant shall permit a probation officer to visit his at any time at home or
elsewhere and shall permit confiscation of any contraband observed in plain view by the
U.S. Probation Officer.

14.

The defendant shall notify the probation officer within seventy-two (72) hours of being
arrested or questioned by a law enforcement officer.

15.

The defendant shall not enter into any agreement to act as an informer or a special agent
of a law enforcement agency without the permission of the court.

16.

As directed by the probation officer, the defendant shall notify third parties of risks that
may be occasioned by the defendant's criminal record or personal history or
characteristics, and shall permit the probation officer to make such notifications and to
confirm the defendant's compliance with such notification requirement.

The court hereby directs the probation officer to provide defendant with a written
statement that sets forth all the conditions to which the term of supervised release is subject, as
contemplated and required by 18 U.S.C. § 3583(f).
FINE
The court did not order a fine because the defendant does not have the financial resource
or future earning capacity to pay a fine.

3

*-a
Case 4:18-cr-00310-A Document 33

Filed 04/26/19

Page 4 of 5

PagelD 83

FORFEITURE
Pursuant to 18 U.S.C. § 924(d) and 28 U.S.C. § 2461(c). it is hereby ordered that the
defendant’s interest in the following property is condemned and forfeited to the United States: an
Intratec, Model AB-10, 9-rnillimeter pistol, bearing Serial No. A062735, including any
ammunition, magazines, or accessories recovered with the firearm.

STATEMENT OF REASONS
The “Statement of Reasons” and personal information about the defendant are set forth
on the attachment to this judgment.
Signed this the 26th day of April, 2019.

ITED STATES DISTRICT JUDGE

4

Case 4:18-cr-00310-A Document 33 Filed 04/26/19

Page 5 of 5

PagelD 84

RETURN
I have executed the imprisonment part of this Judgment as follows:

Defendant delivered on
at

, 2019 to
, with a certified copy of this Judgment.

United States Marshal for the
Northern District of Texas
By
Deputy United States Marshal

5

